      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




May 12, 2011

TO:            Yvette Roubideaux, M.D., M.P.H.
               Director
               Indian Health Service


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Audit of the Indian Health Service’s Internal Controls Over Monitoring of
               Recipients’ Compliance With Requirements of the Indian Health Professions
               Scholarship Program (A-09-09-00044)


The attached final report provides the results of our review of the Indian Health Service’s
internal controls over monitoring of recipients’ compliance with certain requirements of the
Indian Health Professions Scholarship program.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-09-09-00044 in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




   AUDIT OF THE INDIAN HEALTH
SERVICE’S INTERNAL CONTROLS OVER
   MONITORING OF RECIPIENTS’
COMPLIANCE WITH REQUIREMENTS OF
 THE INDIAN HEALTH PROFESSIONS
      SCHOLARSHIP PROGRAM




                        Daniel R. Levinson
                         Inspector General

                            May 2011
                          A-09-09-00044
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Indian Health Service (IHS), an agency in the U.S. Department of Health & Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 700 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization.

Section 104 of the Indian Health Care Improvement Act (IHCIA) of 1976 (P.L. No. 94-437), as
amended, requires IHS to administer the Indian Health Professions Scholarship program. The
purpose of this program is to increase the number of American Indians and Alaska Natives
entering health professions and to ensure the availability of Indian health professionals to serve
Indians. Under the program, IHS provides scholarship grants (scholarships) to Indians who are
enrolled full or part time in appropriately accredited schools and pursuing courses of study in the
health professions. IHS awarded approximately $24.7 million in health professions scholarships
for the 2-year period ended August 31, 2008.

Pursuant to section 104(a) of the IHCIA, each recipient of health professions scholarship funds
must sign an Indian Health Scholarship Program Contract with IHS in which he or she agrees to
complete an approved education program and fulfill a minimum active duty service obligation of
2 years. According to the Indian Health Manual, IHS is responsible for monitoring recipients to
ensure that they are in compliance with section 104 of the IHCIA and the contract with IHS. A
recipient who fails to complete the approved education program must repay the Federal
Government all funds paid under the contract. A recipient who fails to begin or complete the
required service obligation must repay an amount calculated according to a formula described in
section 108(l) of the IHCIA.

The Federal Managers’ Financial Integrity Act of 1982 (P.L. No. 97-255) requires each
executive agency to develop internal controls in accordance with standards prescribed by the
Comptroller General and to provide reasonable assurance that funds are safeguarded against
waste, unauthorized use, or misappropriation. The Office of Management and Budget Circular
A-123 states that Federal agency management is responsible for establishing and maintaining
internal control activities to meet the objectives of effective and efficient operations and
compliance with applicable laws and regulations.

OBJECTIVE

Our objective was to determine whether IHS had adequate internal controls to monitor
recipients’ compliance with certain requirements of the Indian Health Professions Scholarship
program.




                                                 i
SUMMARY OF FINDINGS

IHS did not have adequate internal controls to monitor recipients’ compliance with certain
requirements of the Indian Health Professions Scholarship program. Specifically, IHS did not
always follow its policies and procedures to verify that recipients completed approved education
programs and that recipients were fulfilling their required service obligations. As a result, IHS
could not ensure that all recipients were in compliance with Indian Health Professions
Scholarship program requirements.

RECOMMENDATION

We recommend that IHS follow its policies and procedures to verify that recipients of Indian
health professions scholarships complete approved education programs and fulfill required
service obligations.

INDIAN HEALTH SERVICE COMMENTS

IHS concurred with our recommendation and described actions that it had taken or planned to
take to address the recommendation. IHS’s comments are included in their entirety as the
Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Indian Health Service ...............................................................................................1
              Indian Health Professions Scholarship Program......................................................1
              Indian Health Professions Scholarship Program Requirements for Recipients .......1
              Federal Requirements for Internal Controls ............................................................2
              Office of Inspector General Reviews ......................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................3
               Objective ..................................................................................................................3
               Scope ........................................................................................................................3
               Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATION...................................................................................4

          FEDERAL REQUIREMENTS ............................................................................................4

          VERIFICATION OF COMPLETION OF EDUCATION PROGRAMS ...........................4

          VERIFICATION OF FULFILLMENT OF SERVICE OBLIGATIONS ...........................5

          RECOMMENDATION .......................................................................................................6

          INDIAN HEALTH SERVICE COMMENTS ........................................................................6

APPENDIX

          INDIAN HEALTH SERVICE COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Indian Health Service

The Indian Health Service (IHS), an agency in the U.S. Department of Health & Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 700 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization.

The Indian Health Care Improvement Act (IHCIA) of 1976 (P.L. No. 94-437), as amended,
authorizes IHS funding to administer programs to attract and recruit qualified individuals into
health professions needed at IHS facilities. These programs are intended to encourage American
Indians and Alaska Natives to enter health professions and to ensure the availability of Indian
health professionals to serve Indians.

Indian Health Professions Scholarship Program

Section 104 of the IHCIA, as amended, requires IHS to administer the Indian Health Professions
Scholarship program. The purpose of this program is to increase the number of American
Indians and Alaska Natives entering health professions and to ensure the availability of Indian
health professionals to serve Indians.

Under the Indian Health Professions Scholarship program, IHS provides scholarship grants
(scholarships) to Indians who are enrolled full or part time in appropriately accredited schools
and pursuing courses of study in the health professions. According to the IHS Scholarship
Program Application Handbook, scholarships are for a 1-year period. Additional scholarship
support may be awarded to each eligible student for up to a maximum of 4 years. IHS awarded
approximately $24.7 million in health professions scholarships for the 2-year period ended
August 31, 2008.

Indian Health Professions Scholarship Program Requirements for Recipients

Pursuant to section 104(a) of the IHCIA, each recipient of health professions scholarship funds
must sign an Indian Health Scholarship Program Contract with IHS in which he or she agrees to,
among other things, complete an approved education program and fulfill an active duty service
obligation. 1 Section 104(a) of the IHCIA and section B of the contract require the recipient to
maintain enrollment in the approved course of study until completion, maintain an acceptable
level of academic standing while enrolled in the approved education program, and fulfill a
minimum service obligation of 2 years.



1
 Section 104(a), as amended by P.L. No. 100-713, incorporates the requirements contained in section 338A of the
Public Health Service Act (42 U.S.C. § 254l).


                                                        1
Pursuant to section 104(b)(3)(A) of the IHCIA, the service obligation may be fulfilled in IHS, in
a program conducted under a contract entered into under the Indian Self-Determination Act, in a
program assisted under Title V of this Act, or in the private practice of the applicable profession
if such practice is situated in a physician or other health professional shortage area and addresses
the health care needs of a substantial number of Indians. Pursuant to section 104(b)(3)(B) of the
IHCIA, the service obligation may be deferred for the recipient to complete any internship,
residency, or other advanced clinical training that is required for the practice of the applicable
health profession, subject to certain conditions.

Pursuant to section 104(b)(5) of the IHCIA, as amended by P.L. No. 102-573, a recipient who
has entered into a contract with IHS is liable to the Federal Government for all funds paid under
the contract if the recipient fails to maintain an acceptable level of academic standing in the
educational institution in which he or she is enrolled; is dismissed from the institution for
disciplinary reasons; voluntarily terminates training in the institution before completion; or fails
to accept payment or instructs the educational institution not to accept payment of a scholarship
under the contract in lieu of any service obligation. A recipient who fails to begin or complete
the required service obligation must repay an amount calculated according to a formula
described in section 108(l) of the IHCIA. Section 108(l) requires that a recipient repay the
Federal Government an amount equal to three times the funds received, plus interest, reduced by
the percentage of the service obligation that was fulfilled.

However, pursuant to section 104(b)(5)(C) of the IHCIA, any service or payment obligation is
canceled upon the recipient’s death. In addition, section 104(b)(5)(D) authorizes IHS to waive or
suspend any service or payment obligation when (1) it is not possible for the recipient to meet
the obligation or make the payment, (2) requiring the recipient to meet the obligation or make the
payment results in extreme hardship, or (3) enforcement of the requirement would be
unconscionable.

Federal Requirements for Internal Controls

The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 (P.L. No. 97-255) requires each
executive agency to develop internal controls in accordance with standards prescribed by the
Comptroller General and to provide reasonable assurance that funds are safeguarded against
waste, unauthorized use, or misappropriation. The Office of Management and Budget (OMB)
Circular A-123 provides guidance on implementation of the FMFIA and further defines
management’s responsibility for internal controls in Federal agencies.

Office of Inspector General Reviews

We reviewed IHS’s internal controls for monitoring recipients’ compliance with the education
and service obligation requirements of the Indian Health Professions Scholarship program.
Separate reports address IHS’s internal controls for monitoring recipients’ compliance with
certain requirements of IHS’s Loan Repayment Program (A-09-10-01005), Nursing Program
(A-09-10-01006), and American Indians Into Psychology Program (A-09-10-01007).




                                                 2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether IHS had adequate internal controls to monitor
recipients’ compliance with certain requirements of the Indian Health Professions Scholarship
program.

Scope

We reviewed IHS’s internal controls over its monitoring of recipients’ compliance with certain
requirements for health professions scholarships. We limited our review of internal controls to
those controls for monitoring recipients’ completion of education programs and fulfillment of
service obligations.

We limited our review to the documentation that IHS maintained for each recipient. We did not
determine whether recipients were eligible to receive health professions scholarships.

We performed our fieldwork at IHS Headquarters in Rockville, Maryland.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    interviewed IHS officials to obtain an understanding of the recipient requirements of the
        Indian Health Professions Scholarship program;

   •    reviewed IHS’s policies and procedures for monitoring recipients’ compliance with
        Indian Health Professions Scholarship program requirements;

   •    obtained an understanding of the IHS data systems used to monitor recipients’
        completion of education programs and fulfillment of service obligations;

   •    selected a judgmental sample of 44 recipients of Indian health professions scholarship
        funds in Federal fiscal year 2007; and

   •    reviewed IHS’s paper and electronic documentation and interviewed IHS officials to
        verify whether IHS monitored the sampled recipients’ completion of education programs
        and fulfillment of service obligations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


                                                3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

IHS did not have adequate internal controls to monitor recipients’ compliance with certain
requirements of the Indian Health Professions Scholarship program. Specifically, IHS did not
always follow its policies and procedures to verify that recipients completed approved education
programs and that recipients were fulfilling their required service obligations. As a result, IHS
could not ensure that all recipients were in compliance with Indian Health Professions
Scholarship program requirements.

FEDERAL REQUIREMENTS

The FMFIA, section 2(d)(1)(A), states: “… [I]nternal accounting and administrative controls of
each executive agency shall be established in accordance with standards prescribed by the
Comptroller General, and shall provide reasonable assurances that … (ii) funds, property, and
other assets are safeguarded against waste, loss, unauthorized use, or misappropriation ….”

OMB Circular A-123, section II, states: “Internal control is an integral component of an
organization’s management that provides reasonable assurance that the following objectives are
being achieved: effectiveness and efficiency of operations … and compliance with applicable
laws and regulations.” Section II also states: “Management is responsible for developing and
maintaining internal control activities … to meet the above objectives.” Section III.A. states:
“… [Management] should design management structures that help ensure accountability for
results. As part of this process, agencies and individual Federal managers must take systematic
and proactive measures to develop and implement appropriate, cost-effective internal control.”

VERIFICATION OF COMPLETION OF EDUCATION PROGRAMS

IHS is responsible for ensuring that recipients are in compliance with section 104 of the IHCIA
and the contract with IHS, both of which require recipients to complete approved education
programs. This responsibility is reflected in part 5 of the Indian Health Manual (the Manual),
which contains IHS policies and procedures, including policies for IHS’s scholarship programs.

Sections 20.7A. and 20.6I. of the Manual, respectively, assign within IHS the responsibility to
“ensure that the statutory requirements of [IHCIA] are met” and that the terms of IHS
scholarship contracts are met. Section 20.7B. of the Manual requires IHS personnel to
“… monitor academic performance in order to assure success in the scholarship recipient’s
health education.” In addition, sections 20.2E. and 20.8E. of the Manual assign responsibility
within IHS to monitor the recipient’s academic performance. Finally, section 20.10E. states that
the recipient must provide IHS with acceptable verification that all requirements of a health
profession degree have been completed to be eligible to begin the required service obligation.

IHS’s Scholarship Program Procedures, procedures 1.03 and 1.04, introduced in October 2008,
instruct IHS to monitor the recipient’s academic status on an ongoing basis. Both procedures


                                                4
require IHS personnel to review the recipient’s transcript to determine whether the recipient is
struggling, failing, or no longer in an approved program and whether course changes have been
made. In addition, procedure 1.08, also introduced in October 2008, instructs IHS personnel to
obtain from the recipient proof of education program completion before the recipient is accepted
for placement in a position that satisfies the service obligation. Examples of acceptable proof
include a diploma or a copy of a medical license or certificate if applicable to the recipient’s
health profession.

Of the 44 recipients we selected for review, we identified 38 recipients who should have
completed their education programs. 2 This determination was based on reviewing IHS’s
documentation for the recipients. IHS did not verify that 29 of those recipients had completed
their education programs. IHS’s documentation related to the 29 recipients did not contain any
evidence demonstrating that the recipients had completed their education programs, indicating
that IHS staff had not monitored recipients’ compliance with this requirement. We interviewed
the IHS program analysts responsible for maintaining and reviewing the files of the 29 recipients
and confirmed that IHS did not verify that the recipients had completed their education
programs. For the remaining nine recipients, IHS’s documentation contained evidence
demonstrating that the recipients had completed their education programs.

Before our review, IHS had made only limited attempts to contact recipients who had not
submitted evidence of completion of education programs. IHS had requested from only 4 of the
29 recipients evidence of education program completion and did not follow up with the
recipients who had not provided the requested documentation. In addition, during our fieldwork,
IHS requested from 6 of the 29 recipients evidence of education completion but received it from
only 3 recipients.

VERIFICATION OF FULFILLMENT OF SERVICE OBLIGATIONS

IHS is responsible for monitoring recipients to ensure that they are in compliance with
section 104 of the IHCIA and the contract with IHS, both of which require recipients to fulfill
service obligations. This responsibility is reflected in part 5, sections 20.6 and 20.7, of the
Manual. Part 5, section 20.10I., of the Manual requires IHS personnel to notify a recipient of the
requirement to fulfill a service obligation. Specifically, IHS personnel must document and notify
recipients of an anticipated service obligation completion date. Once employed, the recipient is
required to provide IHS with evidence of employment (e.g., civil service personnel action form
and current job description).

IHS’s Scholarship Program Procedures, procedure 1.08, states that IHS program analysts
facilitate and monitor placement of graduating recipients and are expected to ensure placement
of most recipients within 90 days of graduation. Procedure 1.08 instructs IHS personnel to
(1) remind the recipient of the requirement to provide IHS with annual status reports and
(2) maintain those reports to verify the status of the service obligation. Annual status reports,
accompanied by personnel orders or a civil service personnel action form and a current job
description, provide IHS with evidence that the recipient is fulfilling his or her service
obligation. These reports are due to IHS annually from the service obligation start date until the
2
    The remaining six recipients were in the process of completing their education programs.


                                                           5
service obligation is completed. Further, procedure 1.11, also introduced in October 2008,
instructs IHS personnel to monitor all recipient files at least twice per year to determine when
recipients are scheduled to begin their service obligations or have not found employment and are
recommended for default.

Of the 44 recipients we selected for review, we identified 34 recipients who were in their service
obligation period. 3 This determination was based on reviewing IHS’s documentation for the
recipients. IHS did not verify that 32 of those recipients had begun their service obligations. 4
IHS’s documentation related to the 32 recipients did not contain any evidence demonstrating that
the recipients had begun their service obligations, indicating that IHS staff had not monitored
recipients’ compliance with the service obligation requirement. We interviewed the IHS
program analysts responsible for maintaining and reviewing the files of the 32 recipients and
confirmed that IHS did not verify that the recipients had begun their service obligations. For the
remaining two recipients, IHS’s documentation contained evidence demonstrating that the
recipients had begun their service obligations.

Before our review, IHS had made only limited attempts to contact recipients who had not
submitted evidence of fulfilling their service obligations. We found that IHS had requested from
only 6 of the 32 recipients evidence of fulfilling their service obligations and did not follow up
with the recipients who did not provide the requested documentation. In addition, during our
fieldwork, IHS requested from 10 of the 32 recipients evidence of employment. Only five of
these recipients submitted to IHS evidence of beginning their service obligations.

RECOMMENDATION

We recommend that IHS follow its policies and procedures to verify that recipients of Indian
health professions scholarships complete approved education programs and fulfill required
service obligations.

INDIAN HEALTH SERVICE COMMENTS

IHS concurred with our recommendation and described actions that it had taken or planned to
take to address the recommendation. IHS’s comments are included in their entirety as the
Appendix.




3
 The remaining 10 recipients consisted of 6 recipients who were in the process of completing education programs,
3 recipients who had the service obligation deferred to a later period, and 1 recipient who was in the process of
securing employment.
4
  At the time of our review, based on IHS’s documentation, none of the 44 recipients had served long enough to
fulfill their service obligations.


                                                        6
APPENDIX
                                                                                                                        Page 1 of3


        APPENDIX: INDIAN HEALTH SERVICE COMMENTS 




    DEPART MENT OF HEALTH &. H UMAN SERVIC ES 	                                                 Public Health Service


                                                                                                Indian Health Service
                                                                                                Rockvill .. MD 20852
                                                   APR     5 1011


TO: 	              lnspl.~tor   General

FROM : 	           Director

SUBJECT: 	        Response to the Office of Inspector General "Audit of the Indian I leallh Service's
                  lntcnlal Controls over Monitoring ofRecipicnts' Compliance With Requiremt!l1 ts
                  or the Indian Health Professions Scholllrfihip ['rogrum (A-09-U9-00044r­


The purpose oflhis memorandum is to respond to your January 19.2011 memorandum
lransmitling the Office of [nspoxlor General (OIG) draft report providing the lX."Sulls of the OtG
"Audit of the Indian Health Service's Internal Controls over Monitoring of Recipients'
Compliance With R(:"quircmcnls oflhe Indian Health Professions Scholarship Program (A-09-09­
00(44): ' I appreciate the opportunity to address your recommendation.

DIG R(fco/lllI/cml(l(ion:

(/) We feCl/mlll/' lId {h,,1 IIlS/i)/{o\l" il"· I'()lici('.~ amll'l"Oce(/urcs (t) \'cr{(v fhaf recil'iellfs (!f Indial1
{waffli {1I"I!(c.uirm.l· .I-d/l}far.l"hip.~ compfei<' appl"Ored ('ducafirm pmgr<lIll.I· <lnd/irf/ill r(flluired
.I·en·ice oh/igafirm.,·.

IHS Response:

We concur. In April, 2010, tht: Indian Health Service ([HS) began an initiative to develop and
implement more c!Teclive internal cOlltrols over rceipiems' cumplillllcc with rcquirements of
Indian Health Professions Scholarship Program. The initiative's objcctives include processes to
monitor and document recipients' !i.lltilllllent of education requirements and their completion of
required service obl igations.

Specifically. [H$ will monitor rccipicllls' fulfillment of education rcquirements such as
main taining fu[[·time enrollment unti[ completion of their lo""<lucation progmm while meeting the
minimum level of academic standing. IHS will also monitor recipients' completion of required
service obligations (recipients must fu[fill a minimum service obligation of two years).

Plan to Strengthen lntemal Controls:

I) 	 Monitoring recipient completion of their education program:

    a) 	 The IHS Scholarship Program (IHSSP) i~ revising its Standard Operating Procedures
         Manua[ (last edi tion. Del 2008) to add ress the technical del<li[s for monitoring recipient
         compliancc with prognllll policies a!ld procedures and the timdinc for each analyst"s
                                                                                                      Page 2 of3




Page 2 - Inspector General


          function related to this monitoring procc.~s. The manual will be completed by September
          20 II with staff updates and trainings completed by Octoher 201 L

    b) 	 The IHSSP is revising the "in-schoor", "in-dcfcnncnt," and "in-service" policie~. 

         procooures. and reporting n 'ijuircmcnts
                                     ..
          affecting Section 103 (Preparatory and Pre­
         graduate) and 104 (Health Professions) recipient~ in the JHSSr Student handbook. The
         handbook update will further detail for recipients their responsibilities for academic
         pcrfomHlnCC, graduation. service obligation payback, and Dcfault1Waivcr. This update is
         scheduled to be completed by October I. 20 II.

   c) 	 The IHSSP rC1::civcJ OMB approval in August. 20 I0 for significant forms revisions tha t
        will affcct both the applicant and recipient beginning in Academic Year 2011 -2012.
        The~t:: fonns ancltheir use are suppoJ1ed by explanations as to when they are to be used
        and 10 whom thcy are to be delivered to maintain compliance with the recipicnt·s
        contractual reporting requirements throughout (Ill phases of a recipient's ··active staWs'·
        with the lHS Scholarship Program.

   d) 	 The IHSSP analyst staff arc now required to contact each scholarship recipicnt
        semiannually throughout all phascs of their ··activc·· life eycle with thc lHSSP and to
        document this communication in both th e scholarship databasc and recipicnt's hard copy
        files.

   e) 	 Thc IH SSP set aside funding to implement expanded electronic (lutom(llion for
        maintaining/monitoring recipient reporting and progress throughout all plwses of the
        rccipient"s "active status" life cycle with the J!-ISSP.

2) 	 Monitoring recipient completion of their service obligation payback:

   a) 	 The lHSSP performed a scholarship file review activity for recipients funded hctween
        2005 and 2008. The review includ . . .d contacting recipients who failed to providc requircd
        documentation related to completion of their education . complction of approved post­
        graduate training, certification/licensure, or service obligation payback. Thb review
        effort has resulted in electronic and hard copy official scholarship files being complete in
        accordance with repol1ing rcquin::ments; recipien ts idcntified as ncver or partially
        fulfilling thcir service obligation payback are bcing referred to the Program Support
        Center - Debt Management Branch for Default processing/Deht Collection. RL""Cipients
        idcnti lied as having met all rep011ing requirements ,Illd satist:1.ctorily completing their
        scrvice obligation payback Wl;!fl;! sent official completion letters from the IHSSP.

   b) 	   Thl;! lHssr analyst staff is now required to contact each scholarship recipient graduate
          semiannually throughout all phases of their ··active·· life cycle with the lHSSP and to
          document this communicatiun in both the scholarship database and participant" shard
          copy files.
                                                                                             Page 3 of3




Page 3 ~ Inspector General




Thank you for the opportunity to respond to your January 19 memorandum. Jf you have any
questions concerning this response, please contact CDR Michael D. Weahkce. Deputy Director
for Personnel Functions. Office of Management Services. IHS. at (301) 443·6290.




                                              Yvette Roubideaux , M.D .. M.P.H
